CERTIFICATE OF SERVICE
I certify that on March 25, 2021, I filed an original of
the foregoing “EMERGENCY PETITION FOR A
WRIT OF MANDAMUS,” Appendices, Certificate of
Counsel/Self-Represented Petitioner of the number of
words and Verification and a check for filing fees with
the Clerk of the Court in the Supreme Court of the
United States, by Fedex, by Express Priority for
overnight delivery to:
Clerk of Court, Supreme Court of the United States,
1 First Street, NE, Washington, DC 20543;
and I certify that on the same day, I served three
copies each on counsel of record for all Respondents,
via email and by Express Mail via the U.S. Postal
Service for overnight delivery at the following
addresses:
U.S. Court of Appeals for the Federal Circuit,
717 Madison PI NW, Washington, DC 20439
Respondent;
International Business Machines Corporation
(“IBM”);
Kevin Culligan, Maynard, Cooper & Gale, P.C.;
551 Fifth Avenue, Suite 2000; New York, NY 10176;
646-609-9282; kculligan@maynardcooper.com;
Counsel for IBM.
SAP America, Inc. (“SAP”),
Joseph M Beauchamp, Jones Day,
717 Texas Ave, Ste 3300, Houston, TX 77002;
832-239-3939; jbeauchamp@jonesday.com.
Counsel for SAP;

JPMorgan Chase and Company;
Doug Nemec, Skadden Arps Slate Meagher and
Flom, LLP,
Four Times Square, New York, NY 10036;
(212) 735-2419; Douglas.Nemec@skadden.com;
Counsel for JPMorgan Chase & Co;
March 25, 2021

Respectfully submitted,

Dr. Lakshmi Arunachalam
222 Stanford Ave, Menlo Park, CA 94025
650 690 0995; laks22002@yahoo.com
Self- Represented Petitioner
Dr. Lakshmi Arunachalam

